Byers v. CIR
No. 20-1267
DECLARATION OF SERVICE
As required by United States Supreme Court Rules 29.3 and 29.4,
I declare that on MAY 28. 2021.1 served a true and correct copy of the
accompanying PETITION FOR REHEARING on each of the following
named counsels for the respondent, the Commissioner of Internal
Revenue, by placing each copy in the United States Postal Service Mail,
in a first-class postage pre-paid and sealed envelope, addressed to:
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
Room 5614/5616
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
Douglas C. Rennie
Attorney
U.S. Department of Justice
Tax Division
P.O. Box 502
Washington, D.C. 20044
I declare under penalty of perjury, 28 U.S.C. ยง 1746(2), that this
Declaration of Service is true, complete, and correct.
Done at Wayzata, Minnesota:

DATE:

a

RONALD E. BYERS
Petitioner
16808 Prospect Place
Wayzata, MN 55391
(952) 476-2199

